Darcel D. Clark
District Attorney
James J. Wen
Assistant District Attorney
Appeals Bureau

The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N .E.
Washington, DC 20543
Your Honor:

198 East l 6l5 1 Street
Bronx, New York 10451

Phone: 718.838.6669
Fax:
718.590.6523

August 30, 2019

Re:

Carlos Tapia v. New York
No. 19-159
'

I represent respondent in the above-captioned matter, which is a petition for a writ of
certiorari. On August 19, 2019, this Court has directed my Office to file a response to that petition
by September 18, 2019. Pursuant to Rule 30.4 of this Court, I am writing to request an extension
of time to November 1, 2019, to file a brief in opposition.
My request is necessary because of my work commitments. At present, I am engaged in
several matters. I am seeking permission to appeal in one case to the New York Court of Appeals,
and I have two briefs due, as well as an oral argument scheduled, at the New York Supreme Court,
Appellate Division, First Department. Moreover, on August 19, 2019, when this Court ordered me
to respond to the petition, I was on a family vacation until August 26, 2019. Accordingly, I will
not be able to meet my previous obligations and file a timely response in this case by September
18, 2019. I have spoken with petitioner's attorney, Daniel A. Rubens, Esq., and he has consented
to my request.
Thank you for your consideration. If you have any questions, please contact me by phone
at (718) 838-6669 or via e-mail at wenj@bronxda.nyc.gov.

~ . Wen
= n t District Attorney

cc:

Daniel A. Rubens, Esq.
Orrick, Herrington & Sutcliffe LLP
51 West 52 nd Street
New York, NY 10019
David Bernstein, Esq.
Office of the Appellate Defender
11 Park Place, Suite 1601
New York, NY 10007

2

